                                                         OFFICE OF INSPECTOR GENERAL
                                                           OFFICE OF INVESTIGATIONS

                                                 CLOSEOUT MEMORANDUM

I((
  Case ~ i r n b e r :A-05070046                                                                       Page 1 of 1



           We received an allegation that three NSF proposals,' submitted by the ~ u b j e c tcontained
                                                                                              ,~        text, a figure,
           and two embedded citations, apparently copied from multiple source documents. The University
           investigation3 determined that the subject plagiarized text in the three NSF proposals as well as a fourth
           NSF proposal.4 The University concluded that a preponderance of the evidence proved the subject
           knowingly plagiarized the text in the four NSF proposals. The University reprimanded the subject,
           requiring him to 1) obtain appropriate training and education; 2) provide certification and assurances for
           two years that his proposals and reports follow accepted practices; and 3) develop, implement, and deliver
           a segment on the acceptable practices in citing the work of others for new faculty at the University.

           We concur with the University's conclusions. We determined that the subject plagiarized text, a figure
           and two embedded citations into four NSF proposals. We concluded the subject acted knowingly. We
           recommended NSF 1) send a letter of reprimand to the subject informing him that NSF has made a
           finding of research misconduct; 2) require the subject to certify that proposals he submits to NSF do not
           contain plagiarized, falsified, or fabricated material for 3 years; 3) require that the subject submit
           assurances by a responsible official of his employer that any proposals submitted by the subject to NSF do
           not contain plagiarized, falsified, or fabricated material for 3 years; and 4) direct the subject to attend a
           course in research ethics within 1 year of the final disposition of the case. TheNSF adjudicator concurred
           with our recommendations.

           NSF's adjudicator sent the subject a letter of reprimand, required the subject certify foi 3 years that
           proposals or reports submitted to NSF do not contain plagiarized falsified, or fabricated material; require
           the subject for 3 years to submit assurances by a responsible official of his employer that any proposals or
           reports the subject submits to NSF does not contain plagiarized, falsified, or fabricated material; and
           require the subject within 1 year to complete an ethics training course on plagiarism. This memo along          .
           with the Deputy Director's letter and our report of investigation constitute the closeout.

           This case is closed and no hrther action will be taken.




 NSF 01G Fonn 2 ( 1 1/02)
                                      NATIONALSCIENCEFOUNDATION
                                            4201 WILSON BOULEVARD
                                           ARLINGTON, VIRGINIA 22230




    OFFICE OF THE
   DEPUTY DIRECTOR




VIA CERTIFIED MAIL --RETURNRECEIPT REQUESTED
AND ELECTRONIC MAIL                    4




       Re: Notice of Research ~ i s c o n d u c i ~ e t e r m i n a t i o n

Dear




proposals contained plagiarized text, plagiarized citations, and a plagiarized figure.


Research Misconduct and Actions Taken

Under NSF's regulations, "research misconduct" is defined as "fabrication, falsification, or
plagiarism in proposing or performing re~earc~funded  by NSF .. ." 45 CFR $ 689.1(a). NSF
defines "plagiarism" as "the approphation of another person's ideas, processes, results or words
without giving appropriate credit." 45 CFR 9 689.l(a)(3). A finding of research misconduct
requires that:

       (1)         There be a significant departure from accepted practices of the relevant research
                   community; and
       (2)         The research misconduct be committed intentionally, or knowingly, or recklessly;
                   and                                                                 a

       (3)         The allegation be proven by a preponderance of evidence.

45 CFR 9 689.2(c).
             ---
                                                                                            Page 2
In your proposals, you copied text, citations, and a figure from multiple sources without
providing proper attribution for such material. By submitting proposals to NSF that copy the
ideas or words of another without adequate attribution, as described in the OIG Investigative
Report, you misrepresented someone else's work as your own. Your conduct unquestionably
constitutes plagiarism. I therefore conclude that your actions meet the definition of "research
misconducty7set forth in NSF's regulations.

Pursuant to NSF regulations, the Foundation must also determine whether to make afinding of
misconduct based on a preponderance of the evidence. 45 CFR 9 689.2(c). After reviewing the
Investigative Repart and the University's report, NSF has determined that, based on a
preponderance of the evidence, y o u misconduct was knowing and constituted a significant
departure from accepted practices of the relevant research community. I am, therefore, issuing a
finding of research misconduct against you.

NSF's regulations establish three categories of actions (Group I, 11, and IU) that can be taken in
response to a finding of misconduct. 45 CFR $ 689.3(a). Group I actions include issuing a letter
of reprimand; conditioning awards on prior approval of particular activities from NSF; requiring
that an institution or individual obtain special prior approval of particular activities from NSF;
and requiring that an institutional representative certify as to the accuracy of reports or
certifications of compliance with particular requirements. 45 CFR $ 689.3(a)(l). Group II
actions include award suspension or restrictions on designated activities or expenditures;
requiring special reviews of requests for funding; and requiring correction to the research record.
45 CFR 9 689.3(a)(2). Group III actions include suspension or termination of awards;
prohibitions on participation as NSF reviewers, advisors or consultants;~and.dehrment        or*;   .'
suspension from participation in NSF programs. 45 CFR 5 689.3(a)(3).
f'
fh determining the severity of the sanction to impdse for'tesearch misconduct, I have considered
the siriousness of the misconduct; our determination that it was komrhitted knowingly; the
determination that it was part of a pattern; your cooperation during the investigation; and the fact
that your conduct did not have an impact on the published research record. I have also
considered other relevant circumstances. 45 CFR 5 689.3 (b).

I find your plagiarism to be serious because the amount of text that you copied was substantial.
Moreover, in light of the fact that you submitted to NSF four separate proposals containing
plagiarized text, we believe that your plagiarism is part of a pattern of miscond~~ct,
                                                                                   as opposed to
an isolated incident. -However, your conduct did not have a significant impact on the research
record and you cooperated fully with the investigation.

I, therefore, take the following actions:

       From the,date of this letter through January 1,2011, you are required to certify that
       proposals or reports you submit to NSF do not contain plagiarized, falsified, or fabricated
       material. Such certifications should be sent to the OIG, 4201 Wilson Boulevard,
       Arlington, VA 22230.
                                                                                                                                      Page 3

    . . . . . .                       .....     ,-

                                                    From thedate of thk'lettertbugh Jariuary 1,2011, you are required to submit
                   .   ~
                                                    assurances by a responsible official of your employer that any proposals or-reportsyou
                   -   ~                     .   . submit to NSF do not contain plagiarized, falsified, or fabricated material. Such


7
.
        .. .   -   . -. . .           .
                                           -   .  . assurances
                                          . . . . .  .-.....
                                                               should be sent  tothe OIG.
                                                                         . . . . . . . .
                                                 ~.
    -     ~




                                                     You are required to complete an ethics training course on plagiarism by January 1,2009.
                                                     You must certify in writing to the OIG that such training has been completed.


                                          Procedures'Governing Appeals
                       - .    .   .   .




                                          Under NSF's regulations, you have 30 days after receipt of this letter to submit an appeal of this
                                          decision, in writing, to the Director of the Foundation. 45 CFR 689.10(a). Any appeal should
                                          be addressed to the Director at the National Science Foundation, 4201 Wilson Boulevard,
                                          Arlington, Virginia 22230. If we do not receive your appeal within the 30-day period, this
                                          decision will become final. For your information we are attaching a copy,of the applicable
                                          regulations. If you have any questions about the foregoing, please contact
                                                             at (703) 292-8060.




                                                                                                 Sincerely,
                                                                                                     /




                                                                                                 Kathie L. Olsen
                                                                                                 Deputy Director




                                          Enclosures
                                          - Investigative Report
                                          - 45 C.F.R. Part 689
                                                                  -
                                      Executive Summarv
                                      -
Allegation:    Plagiarism

OIG Inquiry:

               Three proposals to NSF, one of which was funded, contained text, a figure, and
               two embedded citations, apparently copied from multiple source documents.
               We referred the allegation to the subject's University for investigation.

University Irivestigation and Actions:

               University discovered an additional funded proposal submitted by the PI that
               contained copied text.
               The University concluded a preponderance of the evidence proved the subject
               knowingly and recklessly plagiarized the text in the four NSF proposals.
               The University reprimanded the subject. It also required that he: obtain
               appropriate training and education;, provide certification and assurances for two
               years that his proposals and reports follow accepted practices; and develop,
               implement, and deliver a segment on the acceptable practices in citing the work of
               others for the                       at the University.
                        I

OIG Assessment:

               We concur with the University that the subject knowingly plagiarized.

          The Act: The subject plagiarized a total of 170 lines of text, a figure, and two
          embedded citations into four proposals.

          Intent: We conclude the subject acted knowingly.

          Standard of Proof The preponderance of the evidence supports the conclusion that
          the subject knowingly plagiarized these materials into his NSF proposals.

          Simificant Departure: We concur with the University in concluding the subject's
          copying represents a significant departure from community standards.

          Pattern: The subject submitted five proposals over approxi~natelya two and one-half
          year period; four of which contained plagiarized material. This supports the
          conclusion that the subject's actions were a part of a pattern.
                ......   .....     ....


                OIG Recommendations:

                          Send a letter of reprimand to the subject informing him that NSF has made a finding of
                          research misconduct;
.   .   .,p,7
                          ;Require the' subject to .certify that- proposals he submits to .NSF do not contain
.   .                     plagiarized; falsified, or fabricated.materia1 for three years;    . ..*




                          Require that the subject submit assurances by a responsible official- of his employer that
                          any proposals submitted by the subject to NSF do not contain plagiarized, falsified, or
                          fabricated material for three years; and

                          Direct the subject to attend a course in research ethics within one year.
                                                              OIG's Inquiry -

- -         We reviewed three NSF proposals' submitted by the subject as the PI. The subject2 was the sole
            PI on Proposals 1 and 2, while Proposal 3 had three co-PIS. We determined that, collectively, the
            three proposals contained at least 150 line3 of apparently copied text, 2 copied embedded
            citations, and 1 copied figure taken fiom a total of 12 separate source documents. Because the
            subject was the sole PI on two of the three proposals, we initiated our inquiry by writing only to
      - .   the subject (Tab I ) . ~The subject responded twice to our request for information (Tab 2).

            In his first response, the subject4 discussed Proposals 1 and 2 on which he was the sole PI. The
            subject expressed " s h o ~ k "to~ learn that these two proposals contained plagiarized materials. He
            stated that he "acknowledged the work of the authors of six of those seven [source]documents as
            indicated in the list,of references at the end of [his] proposals and their cross-references in the
            main text."6 With one of the source documents7 he explained that "it was dropped fiom the list
            of references unintentional^^."^ He further explained that in some instances the citations were
            not next to the copied text, which "was ~nintentional."~      He stated that in proposals to "any
            funding agencies, including NSF, [he] support[s] [his] proposed projects by quotes from
            documents in the lite~ature."'~He explained that copied text was "essentially some definitions
            (e.g., Dl, A2, C2) or some facts (e.g., D2, D3, A l , A3, BI, B3, ~ 4 ) " "which mostly appear in
            the background sections. He stated that he used his original text in all the research potions of his
            proposals.




            ' During- our inquiry,

            4



            " Ibid.
            7
                            -   - initially, the




               Source docu~nelltA with proposals   -three co-PIS on Proposal 3 as well as the PI were considered to be possible
                subjects. However, as a result of our inquiry, we determined the focus of the Investigation should be on the
                subject as the individual most reasonably responsible for the alleged plagiarism in all three proposals.
               Response with email cover, dated August 2, 2005 (Tab 2).
               August 2,2005, response, page 1 (Tab 2).

                                                                                        ('1-ab 1).
            ' ~ u g u s t2,2005, response, page 1 (Tab 2). (Note, copied text from source document A appears in both the proposals
            on which the subject is the sole PI (Proposals 1 and 2). The subject states the reference for source document A was
            originally in the proposals, but was dropped from the reference lists.
                bid, page 1.
            'O Ibid, page 2.
            " Ibid, page 2.'
  The subject's second response, a joint response with one of the three CO-PIS,]~     discussed Proposal
  3. It stated that three of the five source documents13 were acknowledged in the proposal's list of
 references. The two missing references were mistakenly left out of the proposal.'4 In this
 response, they provided several reasons to explain some of the copied text, such as 1) certain
  portions of the text were moved to the end of the proposal, leading to a missing reference for that
-section;-2) &-authors of one of the source documents had another paper that was cited; 3) one
'section used was not claimed to be "a part of the intellectual merit developed during the course
  of our proposed project."'5 Their response stzited the desire "to explicitly clarify that the
  underlined texts under investigation are either definitions (e.g. 11, H), facts (e.g. HI, J1, L), or
 well-known algorithms (e.g., K) in the field of Wireless Sensor ~ e t w o r k s . " 'They
                                                                                      ~    stated that all
  the main contributions, the intellectual merit, and the plan of work in the proposal, were original
 ideas. They emphasized that there was no intention to omit acknowledgments.
  .   ,.   .             .. . . ..
The subject's responses didnot dispel the allegation. We determined thatthere was sufticient
                     .



substance to warrant an investigation, aiid refeked theFinvesti.gationto the subject's University
(Tab 3)."

                                            University's Investi~ation

The University's Committee Investigation Report (the Report) is attached (Tab 4). During the
investigation, the Committee requested, via its Universitfs representative,18 that our office
review the subject's most recently submitted NSF proposal (Proposal 4)19 for possible copied
                                                         9'
 material^.^' We did so, writing to the ~niversit and providing a copy of Proposal 4 with the
18 lines of apparently copied text underlined and cross-referenced to possible source documents
(A though F). 22

The University's representative provided us with a copy of the letter23he sent to the subject about
Proposal 424as well as a copy of the subject's response.25 The subject's response described two of

     (Tab 2) Res onse with email cover, dated August 13, 2005. The email cover with the attachment was copied to
     one co-PI,. -                    There is no explanatiun as to-why the other two co-PIS, also from the subject's
     University, were not included in this or any other responses..
 l 3 Source documents H, J, and K.
 l 4 Source documents I and L.
 I S Tab 2, August 13,2005, response, page 1.




   plagiarism review of the subject's Proposal 4, which was           at the time of this request. (Tab 5, Section A)
   Tab 5, Section B
22 We evaluated NSF Proposal 4 and provided the information to the Committee to evaluate more thoroughly (Tab 5,
   Sections C and D).
23 We reminded the University that the subject had not had-an opportunity to respond to the alleged copied text
   annotated in Proposal 4 as he had with Proposals 1, 2, and 3. Hence, the University wrote to the subject
   specifically about Proposal 4 to provide him with this opportunity.
24 Tab 5, Section E, letter to subject f r o m , dated March 23, 2006.
          -
                                      thesixsource-documents-asmaterial he originally wrote.26 His response about the other four
                -
                                      source documents was similar to his initial responses discussed above.
                                                                       .   .-   . . . . ... . . .          ,   ~~   ~~

                                                                                                                                    . . .
                                        The Committee reviewed all the documents and interviewed the subject. It determined that the
                  -:- -          :      -subjectplagi'ariqed m,aterials~knowingl-yaqd-.r-eckl.ess1.y         based on the preponderance of the
         ..   -.---                     zvidenca --Further,it determined that the subject's.adions were asignificant departurefrom. . - . . . . - . . . . . .
    ..         ,        ,            ..
                                        accepted practice and were part of a pattern of behavior over an extended period of time.
I.
                                        However, the Comniittee did siiggest that the subject may not have had a full.understanding of
         . . . .


                                                                            a
                                        the rules of citations because significant portion of his formal education took place in a foreign
                                     . -country..l
I -       ..        - . -   ..                        .:.-. :. ..- . . . . . . . . . .
                                                                             . .     . .
                                                                                         . ... .-. . . . . .  . . .




                                      The Committee's report is cursory in that it does not appear that the committee took extensive
                                      notes regarding its interview of the subject nor did they provide extensive reasoning for the
                                      conclusions they made. However, it did appear to perform an adequate review of the material
I
I
                                      that resglted in a reasonable conclusion. As a result, the Committee determined that the subject
                                      committed research misconduct.

I                                     The committee recommended that:

                                             1. the subject receive a letter of reprimand from the Chancellor, a copy of which'be placed
                                                in the subject's personnel file;
                                             2. the subject get appropriate training and education in this matter, provide description and
                                                evidence of the training to the appropriate people at the University, and certify to each of
                                                these that he completed this training successfully;
                                             3. the subject provide certifications and assurances to the chair of his department for 2 years
                                                that his proposals and reports follow accepted practices with regard to citing the work of
                                                others; and
                                             4. the subject develop, implement, and deliver a segment on the acceptable practices in
                                                citing the work of others for the                       at the University.

                                      The Chancellor accepted the Committee's report and recommendations. He sent a letter to the
                                      subject on May 2,2006 (Tab 4, Section A), finding that the subject committed research
                                      misconduct, specifically plagiarism, and imposed the actions recommended by the Committee.

                                                                                                    OIG 's Assessment

                                      NSF7sResearch Misconduct Regulation states that a finding of misconduct requires:

                                                 (1) There be a significant departure from accepted practices of the relevant
                                                 research community; and (2) The research misconduct be committed




                                      25   Tab 5, Section F, response from subject t      o     , dated March 3 1, 2006.
                                      26
                                           subject was the original author of source documents A and D. These are in the book,     h,
                                            The subject's response to the University's request for an explanation of the copied text in Pro osal4 revealed the
                                                                                                                                                       entitled
                intentionally, or knowingly, or recklessly; and (3) the allegation be proven by a
                preponderance of the evidence.[271

    We evaluated the information provided in the University's Report (Tab 4, Section A) as part of
    our own investigation. The Report contained no information about the Committee'sinterview of
    the subject. At our request, the University provided us with handwritten notes taken during the
    interview (Tab 4, Section B). Also, the Committee had not interviewed the co-PIS as d part of its
    investigation. Therefore, we requested, and the University agreed, to interview the co-PIS. The
    University's summary of the interviews is located at Tab 4, Section C.
                                                                                                            .    -
    The University also did not provide the subject with a copy of the draft Report for his comments.
    We wrote to the subject, providing him with a copy of the Report and explaining that as part of
    our independent investigation,28we would appreciate any comments he might have about the
    Report. Our letter and the subject's response are included at Tab 6. The subject's response did
    not provide any further information regarding his actions.

    In evaluating his various responses, we note that in some instances the subject included thk
    citation for the copied text within the text or elsewhere in his proposals. However, he has not
    appropriately distinguished the copied materials he used in the proposals from his own words
    and figures. Consequently, he is neither providing appropriate credit for the source of these
    copied materials, nor is he providing the reader with the knowledge that these words and this
    figure are not his. Rather, he is presenting these words as his own work. In the four proposals,
    there are, combined, approximately 170 lines of plagiarized text, a figure, and 2 embedded
    citations, all presented as if they were the subject's own work.
Y

    We note that in another of the subject's NSF proposals (a fifth proposal),29the subject clearly
    distinguishes and appropriately cites two separate paragraphs of text (Tab 7).30 This proposal
    was submitted before our inquiry was initiated. Therefore, the evidence suggests that the subject
    understood what constitutes appropriate citations.

    The Committee stated that the subject:

                was not sufficiently knowledgeable in the accepted practices regarding citing the
                work of others, because a significant part of his formal education was conducted




         ,.,- -
                in a foreign

    We disagree and note that although the subject did complete a significant portion of his training       ,
    in a foreign country, he received his Ph.D. from an accredited U.S. institution, at which he acted
    as a teaching and research assistant for four years while completing his degree. Subsequently, he

    27 45  CFR 689.2(c).                                                                            I   , 2,b,

    28 NSF Research Misconduct Regulation (45 CFR art 689).
                                       L 2



    2 9 ( ~ a b7) NSF ro osal               , entitled "
                                ," was submitted by the subject as the sole PI           This ro osal was

         ,               each of which contalned plagiarized materials.
    30 Tab   7, page 1 ("Introduction") of proposal
    31
         Tab 4, Section A, 12 April 2006 Report, page 2.


             Draft                 Draft                        6           Draft      Draft
    -.
-
                     -
                           two years-as an Assistant Professor at a state university, and four more years at his present
                           institution where he was an Assistant Professor. The subject trained and taught in the U.S. for a
                           total of 10 years prior to his submission of the NSF proposals which contained copied text. We
                           consider 10 years to be more than enough time for the subject to have learned and understood
                           what the accepted practices are regarding the citation of the work of others. Further, the subject
    ....   -- .- -   - - .-baspubfished over this same period of time. chapters-in two separate books, a rnanual;.and three
    .-.
                           d i c l e s in peer reviewed journals (Tab 8).                                 . .
                                   .   .                             >




                         We also note that although the subject claimed that he only copied "essentially some definitions
                         (e.g., D l , A2, C2) or some facts (e.g., D2, D3, A l , A3, B1, B3, D4)," 32 a review of some of
                         these sections counters his claim. For example, Proposal 2, pages 5 and 6, the first 37 lines of
                         text consist of about 3 1 lines of copied text; and Proposal 3, pages 10 and 11, a section of 43
                         lines of text and one figure contain about 40 lines of copied text as well as the copied figure. We
                         consider this extensive and continuous copied text fiom different sources to be far more than the
                         copying of definitions and facts. Instead, it is blatant plagiarism of others' intellectual efforts in
                         producing the text and figure.

                         Finally, at our request the University reconvened the Committee to include the co-PIS as part of
                         its investigation. The Committee determined that none of the co-PIS acted at a level of intent that
                         could be considered research misconduct under federal iegulations.33 We concur with its
                         conclusion.

                                                                                 -TheAct

                         The Committee concluded by a preponderance of the evidence that the subject inappropriately
                         copied materials from multiple sources into four NSF proposals. We concur with the Committee's
                         assessment. Our inquiry estimated the subject copied, in Proposals 1,2, and 3, a total of
                         approximately 150 lines of text, 1 figure, and 2 embedded citations taken from 12 separate source
                         documents. Further, as a result of the University's investigation, we determined that the subject
                         copied text into Proposal 4 fiom four additional sources (source documents B, C, E, F, see Tab 5).
                         This added about 18 more lines of text, bringing the total copied materials in four proposals to
                         about 170 lines of text, 1 figure, and 2 embedded-citations taken from 16 separate source
                         documents. The total amount of copied text is siyificant, representing more than 4 pages of text
                         in all (see table below).




                         32   Tab 2 , 2 August 2005 response, page 2.
                         33   The Committee determined (Tab 4, Section C) in its follow-up investigation t      h       a     t      , who was
                              co-PI on declined p r o p o s a l , acted carelessly when he allowed the work of a graduate student who
                              assisted with the preparation of background materlal for the proposal to be forwarded to the subject without
                                             close review. As a result, the University required that             participate with the subject in
                              the development, implementation, and deliverance of a segment on the acceptable practices in citing the work of
                              others for the                              University.
                                                  I              Totals                           (          170        1                    1                    1            2              1   $   1
       . . . . . . . . . . . . . . . .                                                        . . . . . . . . . . .          . . . . . . . . . . . . . . . . . . . .               . .
                             .   .           . . . . . . . . . . .
.      -                                     Further, two .of the proposals were funded (Pkpbsals 1 'and 4). Proposal 1 ,a.2-year award, was
    .. ..... .. .. . .                                                            . Thebudget for the.2-year award was modest with funds
                                         . . ..funded prior to th~i.nvestigation.?.

                                              primarily for graduate students, equipment and travel. Proposal 4 was pending at the time of the
        ....                                  investigation, but was.awardedjust prior to the conclusion of the i n ~ e s t i g a t i o ~ ~ '
       . . ... .. .. .                   ....
                                           -.           .   -~
                                                                                                 . . . .
                                                                 . . . . . .. .. .. .. .. .. . . . . . . .        . .
                                                                                                             ........
                                                                                                                                      . . . . . . . .       ...
                                                                                                                                                ................
                                             We requested that each program'officer involved with the recommendation fdr funding for each of
                                             these proposals review the annotated and cross-referenced copies of the relevant proposal and
           .             .
                                             determine if the copied materials played a role in the decision to fund the proposal. Both program
                                             officers concluded that none of the copied text was material to the funding decision (Tab 9).

                                                                                                                                                  Intent                           . .
                                                                                                                                                                                    . . . . .
                                                                                                                                                                       .   .



                                             The Committee concluded that -the subject knowingly and recklessly copied text into his NSF
                                             proposals. We agree the subject knowingly copied text, embedded citations; and .a figure into his
. . . .
            ...
                                             proposals; To. further
                                                             . . . . . . support
                                                                         . . . . . . . the
                                                                                        . . level of intent as knowing, the fifth proposal discussed earlier
                                             ( ~ a 7,
                                                   b see footnote 37) clearly showsthe subject kn&s how to appropriately quote text and
                                             distinguished it from his own in his proposals.

        . . . . . . . . . . . . ..                          .                                    . . .                            ,   .   Standard o f Proof
                                                                                                                                                                                         ,
                                                                              ..                                                                                                   .     .*



                                               We conclude the. .preponderance
                                                                  . . . . . . . . . of.........
                                                                                         the evidence
                                                                                                  - - indicates
                                                                                                       ...
                                                                                                                that the subject copied these materials
                                             into hi<proposals withciut appropriately distiriguiihing the text orfigure fromhis own work. In
                                             addition, the preponderance of the evidence indicates that the subject copied an embedded citation
                                             to a reference into two of his proposals exactly as it was presented in the source 'document with the
                                             text he copied, suggesting that he usedthis reference to develop the text; which he did not. In
                                             copying text, two imbedded citations, anda figure, the subject significantlydiparted from the
                                             accepted practice of the research community. - Since the preponderance of evidence supports the
                                             conclusion that the-subject acted knowingly when he copied these materials, we conclude the
                                             subject committed plagiarism and therefore committed research misconduct.

                                                                                                                        OIG 's Recommended Dis~osition

                             .       .   .   ln decjding yhat actio-ns-are.appropriatewhen making a finding of research misconduct, NSF must
                                             consider several factors. These factors include how serious the misconduct was; whether it was an

                                             34       Proposal 1 expired in August 2006.
                                             35 Proposal       4 was funded on February                                     ,2006, and expires January 3 1,2009.
             .   .        isolated event or part of a pattern; its impact on the research record; and other relevant
                           circumstance^.^^                '




                                                                                                   Seriousness        ,




                     --
                          As noted above, the preponderance of evidence supports thk conclusion thatthe subject acted
                          knowinglywhen he copied verbatim text i n G h i ~ o ~ o 3 a lassignificant
                                                                                          7          departure from the
                          accepted practice in the research community. Plagiarism strikes at the heart of research integrity
                          and is an unacceptable practice within the research community. In addition,

                                       NSF expects strict adherence to the rules of proper scholarship and attribution.
                          ..    -
                                       The responsibility for proper attribution and citation rests with authors of a
                                       proposal; all parts of the proposal should be prepared with equal care for this
                                       concern. Serious failure to adhere to such standards can result in findings of
                                       research misconduct. NSF policies and rules on misconduct in science and
                                       engineering are discussed in Grant Policy Manual (GPM) Section 930 as well as
                                       in 45 CFR Part 689. (GPG section I.B.(10/2003)).

                          The amount of plagiarized text was considerable and substantive, representing the equivalent of
                          over four pages of copied text. In addition, the two citations incorporated as part of the plagiarized
                          text37suggest that the subject copied and pasted these sections of text. Further, in each case, these
                          embedded citations were only used once within the plagiarized text suggesting that the subject may
                          never have even read either reference. The embedded citations, in conjunction with the copied
                          figure, enhance the seriousness.

                                                                                              Mitigating
                                                                                                  -      Factors

                          The subject cooperated fully with both the University's investigation and our office's inquiry and
                          investigation.

                                                                                                     Pattern
                                                                                                                          ...   :   ..

                          The subject submitted five ~~oposals'over approximately a 2 M-year period, four of which
                          contained plagiarized material. This suggests that the subject's actions were a part of a pattern.

                                                                                     Impact on the research. record
                                                                                                             ..            . .
... - .   .. .. .. . . . . . .. .. .. . . . . . . . . . . . . . . . . .   . . . . . . . . .    . . . . . . . . . .'


                          There is no evidence of any impact on the research record as a result of the plagiarism in the
                          proposals submitted to NSF.




                          36 45     CFR (j 689.3(b).
                          37 Proposal     1, page 8, citation # 11, and Proposal 2, page 13, citation # 7.
                                                                                    Recommendations
 ...       - .... . ---:Based--onthe evidence, OIG .recommends that NSF:                          .   ::            . . . . . . . . . . . . . . . . . . . . . . . . . .




                                               .   -    send a letter of reprimand to the subject informing him that NSF has made a finding
                                                        of research misconduct;
           . . . . . . . . . . . .
                                                        'Require the subject to certify 'that proposals he submits to NSF do not contain
  . . .. .. .. .. .. .. .. .. ..        .. .. ..
                                                       ::plagiarized;falsified; or fabricated material for 3 years;
        ~.
                                                         Require that the subject submit assurances by a responsible official of his -employer
. . . . . . .
  ..          .-                    ~       ..         ::-that any proposals :submitted b y the subject to NSF do nof-'contain plagiarized,
                                                         falsified, or fabricated material for 3 years; and

                                                        direct the subject to attend a course in research ethics within 1 year of the final
                                                        disposition of the case.

                                   The subject's certifications and proof of an ethics course should be sent to the Associate
                                   Inspector General for Investigations for retention in OIG's confidential file on this matter.
